<html>
<title> - FEDERAL GOVERNMENT SPECTRUM USE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    FEDERAL GOVERNMENT SPECTRUM USE 

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 6, 2011

                               __________

                           Serial No. 112-69


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-242 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                    COMMITTEE ON ENERGY AND COMMERCE

                            FRED UPTON, Michigan
                                Chairman

JOE BARTON, Texas                  HENRY A. WAXMAN, California
  Chairman Emeritus                  Ranking Member
CLIFF STEARNS, Florida             JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky             EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois             EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania      FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California         BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                ANNA G. ESHOO, California
LEE TERRY, Nebraska                ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan              GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina DIANA DeGETTE, Colorado
  Vice Chairman                    LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma            MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania           JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas          CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee        JAY INSLEE, Washington
BRIAN P. BILBRAY, California       TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire     MIKE ROSS, Arkansas
PHIL GINGREY, Georgia              JIM MATHESON, Utah
STEVE SCALISE, Louisiana           G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio              JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington DORIS O. MATSUI, California
GREGG HARPER, Mississippi          DONNA M. CHRISTENSEN, Virgin Islands
LEONARD LANCE, New Jersey          KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              
BRETT GUTHRIE, Kentucky
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia       

                                  (ii)
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY,                           ANNA G. ESHOO, California
  Vice Chairman                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               DORIS O. MATSUI, California
MARY BONO MACK, California           JOHN BARROW, Georgia
MIKE ROGERS, Michigan                DONNA M. CHRISTENSEN, Virgin 
BRIAN P. BILBRAY, California             Islands
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
MARSHA BLACKBURN, Tennessee          FRANK PALLONE, Jr., New Jersey
PHIL GINGREY, Georgia                BOBBY L. RUSH, Illinois
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              HENRY A. WAXMAN, California, ex 
ADAM KINZINGER, Illinois                 officio
JOE BARTON, Texas
FRED UPTON, Michigan, ex officio
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     2
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     3
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     5
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    47

                               Witnesses

Lawrence E. Strickling, Assistant Secretary for Communications 
  and Administration, United States Department of Defense........     7
    Prepared statement...........................................    12


                    FEDERAL GOVERNMENT SPECTRUM USE

                              ----------                              


                        WEDNESDAY, JULY 6, 2011

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2123, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Present: Representatives Walden, Terry, Stearns, Shimkus, 
Blackburn, Bass, Gingrey, Scalise, Latta, Guthrie, Matsui, 
Barrow, and Waxman (ex officio).
    Staff Present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Neil Fried, Chief Counsel, Communications and 
Technology; Debbee Keller, Press Secretary; Carly McWilliams, 
Legislative Clerk; Jeff Mortier, Professional Staff Member; 
David Redl, Counsel, Telecom; Nicholas Degan, FCC Detailee; 
Stephen Cha, Minority Senior Professional Staff; Jeff Cohen, 
Minority FCC Detailee; Sarah Fisher, Minority Policy Analyst; 
and Roger Sherman, Minority Chief Counsel, Communications and 
Technology.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. We are going to call to order the Subcommittee 
on Communications and Technology.
    To date we have held three hearings on how good spectrum 
policy can promote wireless broadband, spur economic 
development, create jobs, and generate significant revenue for 
the American taxpayer. Today's hearing addresses one of the 
hardest pieces of this spectrum puzzle: how to more efficiently 
use government spectrum and free additional resources to meet 
consumers' growing wireless broadband needs.
    Now, this is not a new challenge for NTIA, the Nation's 
Federal Government spectrum coordinator. The spectrum in the 
AWS-1 band, the spectrum used by T-Mobile and others to provide 
high-speed wireless broadband services, was government spectrum 
as recently as 2007. Relocating the government users and uses 
in that spectrum and making it available for commercial 
operation has been a Herculean task, but one that raised $13 
billion for the U.S. Treasury and furthered U.S. leadership in 
the wireless broadband space.
    Looking toward the future, the NTIA has already undertaken 
the first steps to make additional spectrum available for 
commercial use. In its 5- and 10-year plans, the NTIA has 
identified a number of government spectrum users and uses that 
hold the potential for relocation or greater spectral 
efficiencies.
    I thank the Assistant Secretary Strickling and his staff at 
the NTIA for taking these important first steps to bringing 
additional spectrum resources to the market.
    Among the many bands that the NTIA is examining, perhaps 
the most anticipated is the spectrum from 1755 to 1780 
megahertz. This spectrum, currently used for a myriad of 
government systems, has long been targeted for its potential as 
a commercial band.
    Now, this band is immediately adjacent to the existing 
commercial wireless broadband operations, and is also in use 
for this purpose abroad. Reassignment of this spectrum, 
domestically, for commercial services would bring international 
harmonization and economies of scale to the challenging task of 
expanding wireless broadband speed and availability.
    The spectrum in 1755 to 1780 megahertz, however, is by no 
means the magic bullet to solving the spectrum challenges that 
this country does face. The FCC's National Broadband Plan and 
the administration have both set ambitious goals for making 500 
megahertz of additional spectrum available for commercial 
services. The NTIA has the extremely difficult task of 
maximizing government spectrum efficiency, sharing, and use to 
do its part in meeting this goal.
    The NTIA is going to have to ask some hard questions of 
government spectrum users: Is your spectrum use required or 
could the goal be accomplished using commercial systems?
    Can your agency's use be combined with other government 
uses?
    Could your agency's uses be more efficiently accomplished 
with less spectrum?
    Could your agency use be moved to other less commercially 
desirable spectrum without sacrificing utilities?
    These questions and others will form the basis for the more 
robust and agile Federal spectrum use that will in turn create 
the commercial opportunities to fuel wireless broadband 
innovation, job creation, and revenues for deficit reduction.
    I thank the Assistant Secretary for his testimony today. 
Look forward to a lively discussion of these issues.
    I would tell my counterparts on the committee, the 
Assistant Secretary has a very good flow chart he is going to 
put up, so we are going to actually extend him a longer opening 
time for his testimony so that he can work through this slide 
presentation that he and his staff have put together.
    With that, I would turn now to the gentlelady from 
California, Ms. Matsui, who is filling in for Ms. Eshoo today 
as our ranking subcommittee member. Ms. Matsui, we welcome your 
comments.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    To date we have held three hearings on how good spectrum 
policy can promote wireless broadband, spur economic growth, 
create jobs, and generate significant revenue for the American 
taxpayer. Today's hearing addresses one of the hardest pieces 
of the spectrum puzzle: how to more efficiently use government 
spectrum and free additional resources to meet consumers' 
growing wireless broadband needs.
    This is not a new challenge for the NTIA, the nation's 
federal government spectrum coordinator. The spectrum in the 
AWS-1 band-the spectrum used by T-Mobile and others to provide 
high-speed wireless broadband services-was government spectrum 
as recently as 2007. Relocating the government users and uses 
in that spectrum and making it available for commercial 
operation has been a Herculean task, but one that raised $13 
billion for the U.S. Treasury and furthered U.S. leadership in 
the wireless broadband space.
    Looking toward the future, the NTIA has already undertaken 
the first steps to making additional spectrum available for 
commercial use. In its 5- and 10-year plans, the NTIA has 
identified a number of government spectrum users and uses that 
hold the potential for relocation or greater spectral 
efficiencies. I thank Assistant Secretary Strickling and his 
staff at the NTIA for taking these important first steps to 
bringing additional spectrum resources to market.
    Among the many bands that the NTIA is examining, perhaps 
the most anticipated is the spectrum from 1755-1780 MHz. This 
spectrum, currently used for myriad government systems, has 
long been targeted for its potential as a commercial band. This 
band is immediately adjacent to existing commercial wireless 
broadband operations and is also in use for this purpose 
abroad. Reassignment of this spectrum domestically for 
commercial services would bring international harmonization and 
economies of scale to the challenging task of expanding 
wireless broadband speed and availability.
    The spectrum in 1755-1780 MHz, however, is by no means the 
magic bullet to solving the spectrum challenges this country 
faces. The FCC's National Broadband Plan and the Administration 
have both set ambitious goals for making 500 MHz of additional 
spectrum available for commercial services. The NTIA has the 
extremely difficult task of maximizing government spectrum 
efficiency, sharing, and use to do its part in meeting this 
goal. The NTIA is going to have to ask some hard questions of 
government spectrum users: Is your spectrum use required or 
could the goal be accomplished using commercial systems? Can 
your agency's use be combined with other government uses? Could 
your agency's uses be more efficiently accomplished in less 
spectrum? Could your agency's use be moved to other, less 
commercially desirable spectrum without sacrificing utility?
    These questions and others will form the basis for the more 
robust and agile Federal spectrum use that will in turn create 
the commercial opportunities to fuel wireless broadband 
innovation, job creation, and revenues for deficit reduction. I 
thank the Assistant Secretary for his testimony today and I 
look forward to a lively discussion of these issues.

  OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE 
                  FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for holding today's 
hearing. And I would like to also thank Administrator 
Strickling for being with us here today.
    According to estimates, there are over 300 million wireless 
subscribers in the United States. That number is growing as the 
current economic and social climate have an increasing number 
of consumers opting for only cell phones over traditional land 
lines. As we all know, there is real concern over the current 
allocation of spectrum in the marketplace. There are some 
estimates that by 2014 the demand for spectrum will exceed 
supply.
    It is our job to remain focused on getting the spectrum out 
there, and we should move as quickly as possible. We all agree 
that we should repurpose Federal spectrum for commercial use. 
In our search for additional spectrum, government spectrum is a 
valuable critical resource. The administration deserves credit 
for realizing the importance of allocating additional spectrum 
in the marketplace to meet future demand.
    I also commend NTIA Administrator Strickling and his agency 
for taking this task very seriously. When we finally get to 
repurposing specific bands and auctioning, I believe we will 
need to do so in a way that allows the government to clear 
important users in a timely, transparent, and feasible manner.
    In my opinion, the best approach is to ensure that agencies 
have adequate resources and notice to undertake the substantial 
task which will oversee highly valuable spectrum. But once we 
provide those resources, we need to assure commercial bidders 
that they will get access to spectrum they purchase in a timely 
and predictable fashion.
    In regards to auctioning, the FCC should have the 
flexibility to structure and conduct incentive auctions that 
will truly maximize the economic and social values of the 
spectrum.
    I also believe that comprehensive spectrum policy moving 
forward should offer our innovators and entrepreneurs an 
opportunity to be creative and have a forum to develop advanced 
technologies and applications. To help spur greater innovation, 
I am working on spectrum legislation that supports and further 
advances American leadership and existing unlicensed 
technologies.
    It is important that we continue to promote policies that 
lead to greater innovation in the ever-evolving 
telecommunications and technology sectors. As we know, 
technology changes rapidly. What is new today may not be new 
tomorrow and may be obsolete by next week. Having enough 
spectrum in the marketplace will offer American innovators an 
opportunity to continue to explore and create new products and 
ideas.
    I also believe that spectrum should be preserved for the 
advancement of technologies, including Smart Grid and health IT 
capabilities. Moving forward, spectrum availability will be key 
to ensuring competition, improved public safety, spur 
innovation, and meet growing demand for wireless services.
    I thank you, Mr. Chairman, for holding this important 
hearing today. And I yield the balance of my time to Mr. 
Barrow.
    Mr. Barrow. I thank the gentlelady.
    Today we hold our fourth hearing on spectrum policy and the 
vital role it plays in our economy. Over the past decade, 
technologies relying on spectrum have put so much demand on the 
limited spectrum that is currently available that we face a 
spectrum crunch in the next decade, unless we act soon. Today I 
look forward to discussing ways that we can make more spectrum 
available for commercial purposes.
    As part of this effort, I recently introduced H.R. 911, the 
Spectrum Inventory and Auction Act, which would help avoid the 
looming spectrum crunch by arranging for a comprehensive 
spectrum inventory and voluntary auction of spectrum licenses.
    I look forward to hearing your testimony, Administrator 
Strickling, and working with you and this committee to address 
our spectrum goals.
    I thank the ranking member for the time, and I yield back.
    Mr. Walden. Does the gentlelady yield back the remainder of 
her minute?
    Ms. Matsui. I yield back.
    Mr. Walden. The gentlelady yields back the remainder of her 
time. I turn now to the vice chair of the subcommittee, Mr. 
Terry.

OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE FROM THE 
                       STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, for holding this 
hearing today. I share the goal set forth in the National 
Broadband Plan of finding all government spectrum that is 
currently being used inefficiently and reallocating it for 
commercial use.
    I believe that we may need to revisit the Commercial 
Spectrum Enhancement Act in order to update it to allow for 
better communication sharing, quicker relocations, additional 
public disclosure, and easier sharing of spectrum between the 
government incumbent and the commercial licensee during 
relocations.
    Additionally, as the purpose of this hearing is to examine 
how government is best utilizing wireless spectrum, I would 
like to specifically address how the U.S. Army Corps of 
Engineers is doing so, particularly in the area of flood 
management and prevention. This is a topic of great importance 
to me, especially now as my district and many other communities 
up and down the Missouri River are literally under siege by 
devastating floodwaters.
    My office has found that recently the Corps determined that 
it could give up significant portions of the wireless spectrum 
it was utilizing for these purposes, due to increases in 
efficiency and technology advancements. This a great step in 
the right direction and is to be commended.
    I wonder, however, if we can achieve a win-win, both with 
regard to increased reliability and spectrum efficiency by 
further examining our flood monitoring systems and ensuring the 
best, most reliable, and most efficient technology is being 
deployed.
    And I look forward to your testimony, Mr. Strickling.
    And who would like to----
    Mr. Walden. Mr. Stearns, I think.
    Mr. Terry. Mr. Stearns, I yield to you.
    Mr. Stearns. I thank our distinguished colleague. Thank 
you, Mr. Chairman, for having this hearing.
    Spectrum use in this country is very important. I think it 
is important to realize that while incentive auctions can 
potentially free up a large chunk of spectrum, there are other 
spectrum holders to examine as we consider legislation to 
address the looming spectrum crisis. One such holder is the 
Federal Government itself, obviously. The government has a 
variety of spectrum holds, and while some of this is necessary 
for national security, I think much of it could be used more 
effectively. So I look forward to learning from our witnesses 
today about government spectrum sharing and the time frame for 
making available already freed-up government spectrum to 
commercial users.
    I also look forward to examining and working with the 
committee on the spectrum legislation that I understand will be 
available shortly, and continue to believe that this issue can 
be a win-win for all parties involved.
    Thank you, Mr. Chairman.
    Mr. Walden. Does anyone else seek recognition on Mr. 
Terry's time? Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I do want to 
welcome our witness, and just very briefly say we are looking 
forward to what you have to say. We are all concerned about the 
availability of commercial spectrum or spectrum for the 
innovation and the use in that space.
    As I have over the past week met with so many innovators 
that call Tennessee, and middle Tennessee specifically, home. 
We hear this. We are innovating, we are creating. Will the 
spectrum be there to allow us to push these new innovations 
forward?
    So thank you for being here, and yield back.
    Mr. Walden. The gentlelady yields back. The gentleman 
yields back.
    Let's turn now to the ranking member of the full committee, 
Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    In our previous hearings on the subject, two things have 
become clear. First, there is a strong bipartisan consensus 
that we need to find additional spectrum for wireless 
broadband. And second, there is bipartisan support for creating 
a nationwide broadband network for public safety.
    One topic we have not had an opportunity to explore yet is 
the role of Federal spectrum in achieving these goals. And 
today we will examine Federal spectrum use and whether there 
are opportunities to reallocate Federal spectrum for commercial 
purposes. I am hopeful that we will be able to use this hearing 
and the excellent testimony we have heard in all of our 
hearings as the basis for consensus spectrum legislation.
    I would like to welcome Assistant Secretary Lawrence 
Strickling back to the Energy and Commerce Committee as the 
Administrator of NTIA, the agency tasked with managing Federal 
spectrum assignments. Mr. Strickling will play a critical role 
in maximizing the efficient and effective Federal use of 
spectrum. Under his leadership, the NTIA is leading the 
administration's effort to identify and reallocate spectrum to 
meet our dramatically increasing demands for wireless 
broadband. This is a huge project, and NTIA's dedicated 
professionals deserve enormous credit for accomplishing what 
they have to date.
    Although Federal spectrum has a great potential to help us 
address our growing broadband needs, we must utilize a balanced 
approach in getting there. Companies that bid on Federal 
spectrum for commercial purposes need to know when they will 
have access to this critical and expensive resource. The 
reallocation of Federal spectrum must be transparent, timely, 
and certain so companies can bid accordingly. If we provide the 
proper mix of transparency and certainty, the amount companies 
are willing to pay will increase and the taxpayers will 
benefit.
    We also need to consider new ways to put Federal spectrum 
towards commercial use. Using technology to allow for spectrum 
sharing deserves careful and immediate consideration.
    At the same time, we need to remember that Federal spectrum 
is currently being utilized for important purposes involving 
national security, public safety, and important agency 
operations. We cannot expect agencies and users to simply turn 
off a switch and turn over their spectrum. We need to provide 
adequate resources and time to make complicated and expensive 
reallocation efforts successful.
    I look forward to hearing from Mr. Strickling and learning 
more about the administration's spectrum initiative, challenges 
with reallocating Federal users, and how we can balance the 
need for more information about Federal spectrum use with our 
national security concerns.
    Thank you for being here, Mr. Strickling. And thank you Mr. 
Chairman. I yield back the time.
    Mr. Walden. I thank the gentleman from California. And for 
our members who joined us a bit into the hearing, Mr. 
Strickling is going to be allocated 10 minutes for his 
statement today. He has a slide presentation, I think some of 
you have as well, that he would like to walk through. And I 
thought it would be beneficial for the subcommittee to extend a 
little longer time to him as he is our only witness today.
    So, Mr. Strickling, we are delighted to have you here. We 
appreciate the work you are doing. We look forward to your 
testimony and to the answers to your questions. So please go 
ahead, sir.

 STATEMENT OF HON. LAWRENCE E. STRICKLING, ASSISTANT SECRETARY 
FOR COMMUNICATIONS AND ADMINISTRATION, UNITED STATES DEPARTMENT 
                           OF DEFENSE

    Mr. Strickling. Thank you, Chairman Walden, and in 
particular thank you for the consideration of giving me some 
extra time for my opening remarks.
    I also want to thank Vice Chairman Terry, Congresswoman 
Matsui, Ranking Member Waxman, and all the members of the 
committee for attending this hearing today regarding the use of 
spectrum by Federal Government agencies.
    I am pleased to join you today to describe NTIA's ongoing 
and critical work in managing Federal agency use of spectrum 
and to update you on our efforts to identify and reallocate 
spectrum to meet the Nation's rapidly growing demand for 
commercial wireless broadband service.
    Through his National Wireless Initiative, President Obama 
has set forth a bold vision for spurring innovation, expanding 
economic growth and job creation, and preserving America's 
global technology leadership. For NTIA, a critical component of 
the National Wireless Initiative is the President's directive 
to us last June to work with the FCC to identify and make 
available AN additional 500 megahertz of spectrum for fixed and 
mobile broadband use over the next 10 years. This effort will 
double the amount of spectrum available for commercial wireless 
broadband.
    As directed by the President, NTIA released two reports 
last year. The first was our 10-year plan and timetable, 
identifying 2,200 megahertz of spectrum for evaluation, and 
detailing the process we and the FCC would follow to evaluate 
these bands for possible reallocation to commercial broadband 
service.
    In addition, we released a fast-track evaluation report on 
four bands of spectrum that we evaluated to determine if any of 
those bands could be reallocated for commercial use while 
leaving the existing Federal agency operations in place. By 
doing so, we would be able to make this spectrum available 
within 5 years.
    We concluded that 115 megahertz of spectrum in two bands 
could be reallocated within 5 years while accommodating the 
existing Federal agency uses, which were NOAA weather 
satellites and Department of Defense radar systems.
    In our work, both to manage Federal agency spectrum use on 
a day-to-day basis, as well as to look for 500 megahertz of 
spectrum to reallocate to commercial service, we face a number 
of challenges.
    First, compared to commercial services, Federal agencies do 
not have a lot of spectrum in the prime bands between 225 
megahertz and 3.7 gigahertz. In that range, Federal agencies 
have exclusive use of only about 18 percent of that spectrum as 
compared to commercial and non-Federal users who control 30 
percent of this spectrum on an exclusive basis. The remaining 
51 percent is shared between Federal and non-Federal users.
    Second, Federal agencies use this spectrum assigned to them 
to perform critical missions assigned to them by Congress. 
These missions can range from the NOAA weather satellites, to 
FAA air traffic control systems, to Department of Defense drone 
missions. And when a Federal agency needs spectrum to perform 
one of its missions, we only assign the agency the minimum 
amount of spectrum it needs, and only within the geographic 
area within which it needs the spectrum. In virtually no case 
do we provide an agency exclusive use of an entire band of 
spectrum. With 60 agencies holding around 244,000 individual 
frequency assignments, Federal agencies must share spectrum 
with each other, and in many cases with commercial users.
    Third, the variety and complexity of spectrum uses by 
Federal agencies complicates our day-to-day assignment 
processes, as well as challenges us when we evaluate a band for 
reallocation. Federal spectrum management is much more 
complicated than in the commercial world.
    Generally, any particular commercial band is devoted to a 
uniform set of commercial users providing similar services, 
using comparable systems and technology. In the case of 
cellular and similar land mobile radio services, the commercial 
operator typically has the exclusive right to use a given 
frequency within a geographic area, and this general uniformity 
among commercial providers makes it easier to design and 
implement efficiency enhancements.
    The Federal Government, on the other hand, operates a 
variety of systems within a specific band that may have little 
in common from a technological perspective. A single Federal 
band, for example, could include operations as diverse and 
technologically unrelated as high power radars, satellite 
communications, drone operations, and covert law enforcement 
surveillance operations.
    To illustrate these points, I would like to go through a 
slide presentation we have prepared for today's hearing. And I 
think you have copies of it on your desks. This presentation is 
based on the studies we are currently performing on the 1755 to 
1850 megahertz frequency to determine if any or all of that 
spectrum can be reallocated to commercial wireless broadband 
service. We began this study in January, and expect to complete 
the detailed evaluation by September 30 of this year.
    Over 20 Federal agencies operate in this band, utilizing 
over 3,300 individual frequency assignments.
    Before we get to the specifics of that band, I would like 
to start with the slide up here on the screen relating to the 
commercial use of spectrum. What this shows is how the FCC has 
divided up the United States into cellular market areas.
    Now, if we could go to the next slide. When the FCC 
conducts an auction of spectrum, it can offer spectrum in 
geographic areas as small as those individual cellular market 
areas, or, as shown here, in the case of the AWS-1 auction, it 
can combine the cellular market areas into larger regions for 
bidding.
    In the case of the 90 megahertz auctioned by the FCC for 
AWS-1 the FCC organized the spectrum into 6 blocks, 20 
megahertz at the cellular market area level, 30 megahertz at 
the level of basic economic areas, roughly the size of a State, 
or a little smaller, and 40 megahertz at a regional level such 
as depicted here. Within each of these regions the winning 
bidder has exclusive control of the spectrum. It decides what 
technology to deploy and how to build out its system, and it 
does not have to share its spectrum on a primary basis with 
anyone else.
    So let's now segue to the Federal agency use of the 1755 to 
1850 band. Most of the 3,300 assignments in this band are for 
point-to-point fixed microwave licenses, which we have depicted 
here on this first chart. Agencies such as the Departments of 
Energy, Homeland Security and the FAA use these links to 
transmit data supporting such operations as energy grid 
control, border monitoring and air traffic control. While these 
users are the most numerous, they are also the easiest to 
relocate as technology does exist today to establish these 
links in other spectrum bands.
    But as I go to the next slide, we will overlay on the fixed 
microwave licenses, military bases where training is conducted 
with mobile tactical radios which use spectrum in this band. 
These radios are the military version of mobile, point-to-
point, and cellular systems. And over the last several years, 
the Department of Defense has had to increase the number of 
training locations in order to provide for training of National 
Guard and Reserve units prior to their deployment to 
Afghanistan, Iraq and other locations.
    Next slide.
    Here we overlay military satellites operated by the 
Department of Defense. In particular, what we see here are the 
Earth stations that use frequency in this band to control these 
satellites. Due to the high power of these systems, these Earth 
stations impact the spectrum within the yellow shaded areas of 
the map.
    Remember that satellites generally have a useful life of 
over 20 years, so once a satellite is launched, there is no 
opportunity to change out its radio. And what that means is 
that as long as the satellite is in active use, there will need 
to be ground stations from the East Coast to the West Coast, as 
the satellite passes over the country, to control the 
operations of the satellite.
    And as we did with the NOAA weather satellites we evaluated 
in the fast track report, we can carve out exclusion zones 
around these Earth stations in which no commercial service 
would be allowed.
    But it doesn't end there. And if we go to the next slide, 
this overlays training sites for bomb squads working with 
robots controlled through wireless technology. And keep in mind 
that while the agencies train at the locations depicted on this 
map--and I am checking the color, I guess they are in black on 
the map--in fact, they must be able to deploy this equipment 
anywhere in the country without radio interference.
    The next slide shows the Department of Defense operations 
regarding training on the use of precision guided munitions. 
The large diameter of the circles showing the spectrum use is 
due to the fact that these munitions are delivered from 
tactical aircraft flying at high altitude, and the radio 
spectrum is impacted from the aircraft to the horizon. 
Therefore, the higher the aircraft operates, the larger the 
impact on spectrum use on the ground.
    The next slide, we now overlay spectrum use by the 
Department of Defense for air combat training systems. These 
systems communicate data on pilot and aircraft performance to 
evaluators who can provide immediate feedback to pilots at the 
completion of their training runs. The transmission devices are 
installed on most tactical aircraft. And as with the previous 
slide on precision guided munitions, the area of impact is 
determined according to the high altitude at which these planes 
operate.
    Turning to the next slide, a number of agencies are now 
flying unmanned aerial vehicles or drones in this band. Much of 
this use is for military training but, increasingly, other 
agencies are utilizing drones for border security and disaster 
relief. These orange circles reflect where training is 
conducted today, but with the expanding use of drones, they 
could be deployed anywhere in the country.
    Next slide.
    The Department of Defense develops and tests missile and 
aircraft technology. To support that effort, researchers must 
download large amounts of data from airborne devices during 
testing. This data is critical to monitor performance and to 
analyze malfunctions. And again, these systems operate at high 
altitudes and can impact communications over very long 
distances, as shown in the light blue circles.
    And finally, the last side.
    Many law enforcement agencies conduct surveillance 
operations in this band. These operations produce data and 
video that could be critical evidence in court but, just as 
important, we need these links to monitor and safeguard 
undercover agents that may be in harm's way. These systems 
operate throughout the country, whenever and wherever needed. 
Accordingly, we have shaded the entire country gray, although 
given all the other uses in the band, you can only see the gray 
shading up there in the northern Midwest.
    So that concludes the slide presentation. And, Mr. 
Chairman, I would respectfully request that the slide deck be 
inserted into the record of this hearing.
    Mr. Walden. Absolutely. Without objection.
    Mr. Strickling. And I hope these slides give you a flavor 
for the challenge we face at NTIA to manage Federal agency 
spectrum assignments and to evaluate various frequencies for 
possible reallocation.
    And let me close my opening remarks with some suggestions 
for possible legislation in this area, particularly dealing 
with the relocation of Federal operations.
    Before we can recommend reallocation of any spectrum to 
commercial wireless broadband service, we first need to 
determine the cost of relocating Federal systems or modifying 
them to allow sharing with commercial users. We then need to 
compare that cost to the expected revenue from any auction of 
that spectrum to make sure that the auction revenues exceed the 
costs of reallocation.
    We must also determine to what new spectrum the Federal 
agencies can relocate their operations, and determine whether 
there is space in those bands to accommodate these operations 
once they are moved. But even after we have completed that 
analysis and have recommended reallocation of a band, we face 
the practical problem of the agencies actually relocating their 
operations in a reasonable time frame.
    The single most important step that Congress can take to 
facilitate the reallocation of spectrum is to provide the 
Federal agencies the resources and flexibility they need to 
plan for and undertake relocation and sharing activities. 
Specifically, agencies need resources for upfront planning, 
prior to holding an auction, to determine costs and determine 
the timeline for relocation. The current Commercial Spectrum 
Enhancement Act only allows for reimbursement of agency 
expenses to relocate after an auction has concluded.
    Additionally, the CSEA should be amended to allow for 
reimbursement of agency expenses undertaken to facilitate 
sharing of spectrum with commercial entities.
    And finally, as I hope my presentation made clear, given 
the diverse uses of spectrum by Federal agencies, we need 
flexibility in terms of setting schedules for relocation that 
take into account the particular technology and resource needs 
of each agency. With your support, we will meet the President's 
goal of reallocating 500 megahertz to meet the growing needs 
for commercial wireless broadband service.
    Thank you, members of the committee. I look forward to 
working with you on these important issues. And I now would be 
happy to answer your questions.
    Mr. Walden. Well, thank you very much, Secretary. We 
appreciate your comprehensive testimony and your good work and 
counsel in this area.
    [The prepared statement of Mr. Strickling follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Nobody doubts that these systems are critical. 
The question is, can they be relocated? So just from a 
technical standpoint, can you relocate and open up this band?
    Mr. Strickling. We choose this band because there is 
technology available for these systems that can be utilized in 
other bands. Nonetheless, it is not an easy process to do so. 
So, for example, the satellites, those satellites, we can't 
move them. And as a practical matter, we can't move the Earth 
stations. But we can operate, going forward, in an environment 
where we build exclusion zones or craft exclusion zones around 
those ground stations so that there will be no commercial 
operations taking place in those areas.
    Unfortunately, as you can tell from the slide on the Earth 
stations, there are some very population-dense areas in which 
some of these Earth stations are located, including the 
Washington metropolitan area. So that reduces the overall 
attractiveness of a band if you have to carve out some of these 
areas to protect the satellite operations.
    Our expectation is, though, that for the bulk of these 
operations, should we choose to recommend--and we have not made 
a decision to recommend this yet because the studies are 
continuing--that we could get the operations out of this band 
within the 10 years, other than the satellites.
    Mr. Walden. All right. And then you talked about some of 
the changes you think need to occur in the Commercial Spectrum 
Enhancement Act, including dealing with agency expenses and 
all, to do the relocation. Did the President's budget include 
any money for that effort?
    Mr. Strickling. I believe it is included. The money for 
that would come out of the proceeds of the auctions that would 
take place, so the proposal from the administration for 
incentive auctions would generate a certain amount of revenue, 
a portion of which would be used to fund the agencies for the 
relocation efforts.
    Mr. Walden. And when you talked about the time frame in the 
1755 to 1780 megahertz spectrum available for commercial 
services, was that that 10-year window you were talking about?
    Mr. Strickling. Well, we will make a recommendation on that 
band at the end of September of this year. If the 
recommendation is to reallocate a portion of that band--and let 
me also say that we are looking at the full 95 megahertz from 
1755 to 1850. Industry has indicated a particular interest in 
1755 to 1780, which would be 25 megahertz. We are looking at 95 
because the problem this country faces is bigger than what is 
going to be solved by doing 25 megahertz. So we are looking at 
the whole band to figure out what portion, if any, of it could 
be reallocated. And, again, the idea would be that, but for the 
satellites and perhaps some other systems, that as we continue 
to learn about them, would be made available within 10 years.
    Mr. Walden. Of the 115 megahertz that NTIA identifies as 
fast-track spectrum, only 15 megahertz is below the 3-gig 
threshold. Now many in the industry, I am told, believe that 
spectrum 3-gig is poorly suited for providing mobile wireless 
broadband services. How does the identification of this 
spectrum help meet the President's goal of finding spectrum for 
wireless broadband?
    Mr. Strickling. Well, first off, what you stated is an 
accurate statement of today's market conditions. However, even 
in the band that we are talking about, 3550 to 3650, that band 
is used for WIMAX in other parts of the world, including 
Europe. So there is technology being developed to work in that 
band.
    But we have a long time horizon here. We are looking at 10 
years. And what may be less attractive to industry today may 
well be very attractive to it in 10 years. And more 
importantly, by identifying this spectrum and, in effect, 
putting it in the bank, it sends signals to the manufacturing 
community and others to perhaps be thinking about developing 
the technology that would work in that band.
    Mr. Walden. And that leads to another point which is, how 
do we send the right signals to government agencies to free up 
spectrum that they could either use more efficiently or don't 
really need?
    Now some countries have sort of levied a fee, I guess, on 
government spectrum. I am not advocating that. But I guess the 
question is, if you've got it, who wants to give it up? And yet 
there is this big need. Have you thought that through on how we 
can incent?
    Mr. Strickling. Well, first off, I would take issue with 
the idea that there is a lot of spectrum in the hands of 
Federal agencies that they use inefficiently. Again, because of 
the nature of what I just showed you, an agency comes to us 
with a very specific request to use spectrum in a given 
location at a given frequency. Now, the actual bandwidth they 
take would be dictated by the equipment that they intend to use 
to perform their mission. And certainly, there could be 
advances in the efficiency of that equipment over time. But 
then agencies have to have the resources to be able to pay for 
those technology upgrades to be able to use the spectrum more 
efficiently.
    But in general, because of the way in which we assign 
spectrum--and you can see how we have piled use upon use on top 
of each other in order to cram all these uses in--there are not 
a lot of opportunities for agencies to do what you suggest.
    More importantly, these agencies only get individual 
assignments. We never give them an entire band to work within. 
So the idea that they have gotten more spectrum than they need, 
so that they could find an opportunity to be more efficient 
with it, really doesn't make sense in this context; whereas, it 
might if we had been assigning full bands for exclusive use by 
some of these agencies.
    Mr. Walden. I thank you for your answers. I will turn now 
to the gentlelady from California for questions.
    Ms. Matsui. Thank you, Mr. Chairman.
    Mr. Strickling, I want to ask you a few questions about the 
Spectrum Relocation Improvement Act of 2009 that passed out of 
this committee on a bipartisan basis last Congress. I 
understand that the administration has several concerns about 
the bill. As the committee evaluates the spectrum legislation 
that would direct the FCC to auction several Federal and non-
Federal spectrum bands, it is critical that we do what we can 
to assure greater transparency and speed in the relocation 
process. By helping bidders understand when they will have 
access to available spectrum, we hope we can create incentives 
for wireless broadband providers to participate in such 
auctions and increase the value of the spectrum being sold.
    I know the administration had had concerns with an across-
the-board deadline for transition planning and relocation. What 
would you recommend to help provide greater certainty for 
entities purchasing the spectrum that the relocation process 
would be timely and efficient?
    Mr. Strickling. I think the single most important thing 
that could be done is what I mentioned in my testimony. The 
agencies need adequate, upfront planning resources and 
personnel.
    When we did the relocation under AWS-1, which took over--
well, it started back in 2007 and it is continuing to this day, 
although 81 percent of the Federal systems have been relocated 
as of now and the agencies are pretty much on schedule. But we 
went back to industry in a notice of inquiry in 2009 and asked 
them for their evaluation of how the relocation had done. And 
the one thing that just emerges time and time again in the 
industry comments is that the agencies didn't have the best 
timetable for moving. They didn't have the best information for 
what it would cost.
    This is entirely a resource issue because the agencies 
didn't, you know, have to do this. In addition to the missions 
that Congress has given them to perform, this isn't part of 
their day-to-day direct work. They are now being told, in 
addition to what it is we want you to do in terms of law 
enforcement--protecting the country--we now also need you to 
create a work stream to figure out how you are going to get out 
of this band, how you are going to move into a different band, 
all with no degradation in the performance of the mission that 
they actually are organized to perform. This is hard work and 
it is hard for agencies to do without adequate resources. So, 
more than anything else, giving agencies the resources they 
need would be what we need to improve relocation in the future.
    Ms. Matsui. So those would be part of the incentives that 
you have addressed earlier on, as far as upfront planning of 
resources and adequate time for relocation?
    Mr. Strickling. Yes.
    Ms. Matsui. Things of that nature.
    Mr. Strickling. Yes.
    Ms. Matsui. OK. As you know, S. 911 would require several 
bands of spectrum currently allocated for Federal use to be 
auctioned by 2014. That legislation looks at spectrum between 
1755 to 1850 megahertz, and leaves 15 megahertz of contiguous 
Federal spectrum in the 1675 to 1710 megahertz band, and the 
100 megahertz between 3550 to 3650 megahertz. Can you comment 
on whether you support the auctioning of these bands?
    Mr. Strickling. Certainly, we have already recommended the 
reallocation of 1695 to 1710 and 3550 to 3650. Those were the 
products of our fast track report last year. It is now in the 
hands of the FCC to determine when and how best to auction 
those.
    As the Chairman noted in his comments, 3550 to 3650 is not 
a band that industry is breaking down the door to get ahold of, 
so it may not make sense to auction that spectrum right now. I 
think for 1695 to 1710, the FCC is looking to determine what 
other spectrum it might pair it with in an auction. And I think 
they are also interested in seeing the results of our analysis 
of 1755 to 1850 before making a final decision on what to do 
with that band.
    With respect to the big band, 1755 to 1850, we are still in 
the middle of analyzing that band, and it would be premature 
for me to say today whether we think all or any portion of this 
can and should be reallocated and auctioned.
    Ms. Matsui. So for those bands identified, are there ways 
to identify and estimate the costs associated with relocating 
incumbent Federal users?
    Mr. Strickling. That is very much part of the process we 
are engaged in right now to get those estimates from the 
agencies that are in that band.
    Ms. Matsui. OK. Mr. Strickling, I want to quickly ask you 
this. You mentioned in your testimony, GAO recently released a 
report on NTIA spectrum management functions and oversight. How 
difficult is it for NTIA to coordinate Federal spectrum use and 
oversee how each agency and department is utilizing its 
spectrum resources?
    Mr. Strickling. Well, we have a very skilled and dedicated 
set of public servants in our Office of Spectrum Management, 
and we do the best we can with the resources we have. So we 
feel we can perform our current mission. But I hasten to add 
that we don't do this by ourselves. Federal spectrum management 
involves the active engagement of every Federal agency that 
uses spectrum. I mean, we are not at NTIA in a position to 
design radar systems or to second-guess the Department of 
Justice as to what kind of covert law enforcement gear it needs 
to use on its undercover agents. So we have to depend on the 
agencies to do quality work and have the resources themselves 
to use the most state-of-the-art technology that they can use.
    And I think the GAO report in its proper context should be 
read to be a call for resources, not just for NTIA but for all 
of the agencies that are employed in this effort to have the 
resources they need to do this work as best we can.
    Ms. Matsui. OK. Well, thank you, Mr. Strickling. I see my 
time is overrun.
    Mr. Walden. I turn to the gentleman from Nebraska, Mr. 
Terry, for questions.
    Mr. Terry. Now, in your testimony or questions with Mr. 
Walden, Chairman Walden, you mentioned that you didn't think 
that any government agencies were using the spectrum 
inefficiently. But we are trying to figure out ways that we can 
get them to be more efficient, maybe new technologies that are 
coming out, just maybe a different plan of how to use this.
    Can you run through some of the discussions, or how you are 
working with these government agencies to try and adapt to more 
modern technology so we can free up technologies?
    Mr. Strickling. That is a difficult question. First off, I 
will say that our rules require that before an agency come to 
us and ask for an assignment of Federal spectrum, they have to 
exhaust efforts to use commercial spectrum. So as a result, the 
total amount of Federal spectrum assigned to land mobile radio 
is less than 30 megahertz, because if a Federal agency needs to 
use cellular phones, they generally buy commercial. And that is 
one of our rules. So that is one way that we can minimize 
Federal spectrum use is by requiring agencies to use commercial 
when they can. And that is in our rules.
    The question of are they using the most modern technology, 
it is really a tough issue for each of these agencies as they 
have to balance all of their agency imperatives against the 
cost of upgrading a particular equipment against being able to 
perform some other part of their mission. We can't second-guess 
them on that. We would not refuse a Federal agency a spectrum 
assignment saying, well, you are not using this piece of 
equipment over here that is more efficient, if they say to us, 
well, we can't afford that right now. We have to go with what 
we have got.
    There has also been a reluctance within the administration 
to provide for upgrades of technology to some of the agencies. 
So for example, we have talked about the AWS relocation from 
1710 to 1755. Well, some of those operations were moved out of 
that band into 1755 to 1850. So we are now looking again at the 
same systems in the evaluation we are doing now that were 
targeted and ticketed for relocation as part of the review that 
was done several years ago for AWS-1.
    Had some of those agencies had the opportunity to upgrade 
to different kind of technology, a digital technology and a 
totally different band, we wouldn't be having to go through 
this again. But some agencies were restricted in terms of what 
technology they could acquire when they relocated, and so we 
are now having to look at them a second time within 10 years 
because of that.
    Mr. Terry. And I think you raise an interesting point 
regarding how the agencies can keep up with technologies. And 
so I guess it begs the question of, are you aware of maybe any 
White House initiative or just overall initiative of working 
with these individual agencies--Defense Department is a big 
user, as your map showed--to start thinking ahead of how we can 
use it, these newer technologies now, instead of missing the 
boat and then being stuck with the older technologies which is, 
frankly, inherent to government anyway. But is anyone out there 
on the executive side, the agency side, saying hey, we need to 
do a holistic big-picture look at how we use this spectrum and 
how we have actually a management plan to upgrade and move more 
people or use it more efficiently?
    Mr. Strickling. All right. Yes is the answer to your 
question.
    Mr. Terry. Who is doing it?
    Mr. Strickling. I am sorry?
    Mr. Terry. Who is in charge of that? Is that yours or is 
it--since it has so much of the Defense Department in there, 
who is doing it?
    Mr. Strickling. Well, I think the current thinking on it is 
being driven out the Office of Science and Technology Policy at 
the White House. And as part of the National Wireless 
Initiative I think some provisions were suggested about 
creating some dollars that could be used to do research and 
perhaps even be used as grants to other agencies to allow them 
to do some of this cutting-edge research on new wireless 
technologies.
    The Department of Defense has over 600 people, employees 
and contractors, in their Joint Spectrum Center, and they do 
spend time working on these issues. Other agencies aren't as 
fortunate, and they are smaller users of the spectrum and have 
less ability to conduct research of their own. They are really 
dependent on what the industry provides for them.
    Mr. Terry. Last question, real quick. Any lessons from T-
Mobile spectrum relocation in the AWS? You have 1 second.
    Mr. Strickling. The relocation of AWS--with permission, I 
will run past your time. We actually think the relocation of 
AWS-1 worked pretty well in terms of agencies living up to the 
commitments they made at the time of the auction. I have 
already pointed out that perhaps with better--with more 
resources, they might have had better estimates.
    But where the problems arose with T-Mobile was over the 
early entry provisions, which were voluntary negotiations 
between T-Mobile and certain of the agencies, to see if they 
might be able to get out of their band in certain locations 
sooner than they had committed to as part of the official 
auction process. And yes, there were issues where T-Mobile felt 
that agencies weren't moving as fast as their business 
imperative would like. But again, these were all voluntary 
discussions between the company and the agency.
    We intervened where we could to help things along because, 
again, we all have an interest in seeing more of this spectrum 
used for commercial purposes. But it still came down to what 
ability the agencies had to get out faster than they said they 
were going to.
    Mr. Walden. I now turn to the gentleman, Mr. Barrow, for 5 
minutes.
    Mr. Barrow. I thank the chairman.
    Administrator Strickling, you talked earlier about 
requiring government users to make--to avail themselves of 
commercial facilities when available, and I can certainly see 
the utility of that from both points of view.
    Some commercial wireless servers are willing to share 
spectrum with government users on a nonexclusive basis. And 
yet, I gather some government agencies are kind of reluctant to 
move away from a system of exclusive allocation and control of 
certain spectrum to some sort of a shared-use type of regime.
    What is your view, do you have any idea of the potential of 
something like this, a system where at least for some parts of 
our spectrum, the commercial user got dibs on the spectrum when 
the government users don't need it; when the government user 
needs it, they get dibs on the same spectrum? Is there any kind 
of way--what do you see as the potential for something like 
that?
    Mr. Strickling. Well, it has to develop. I mean, we are 
running out of options of taking bands, clearing them totally, 
and making them available exclusively for commercial providers. 
And actually the reluctance to do sharing, we see much more on 
the commercial side in terms of the willingness of commercial 
providers to share with the existing government uses. It is 
more that than the other way around, that somehow the Federal 
users are reluctant to share. I mean, again, Federal users will 
become customers of the commercial providers when they offer 
services that meet their needs. So we have to be devoted to 
finding more ways where the commercial and the government 
operations can coexist in the same band.
    These exclusion zones we talked about for the satellite 
systems is one example of that. In the 3550 to 3650 range, 
there the commercial use, once it develops, will have to 
coexist with Naval radar systems. And these systems are very 
powerful. If a ship is along the coast line and turns those 
radar systems on, they will blow out whatever commercial 
service might be, you know, on the land side of that system. 
And so we, again, carve out exclusion zones to accommodate the 
possibility that the radars might be in use anywhere along the 
coast line, even though we know that at any given point in 
time, few if any areas will be impacted by these radar systems. 
But this is all part of the overall spectrum management, that 
we have to be engaged in finding these opportunities for 
coexistence.
    Mr. Barrow. I certainly understand the commercial users' 
reluctance to give up and to share use of what has been 
allocated to them. But with regard to the flip side, the part 
that has been allocated to government use, are you aware of any 
reluctance on the part of government users to share spectrum 
where that can be done with deference to the priority of use 
for the government users?
    Mr. Strickling. I am not aware of it. But again, it assumes 
that the Federal users' assignment contains extra spectrum that 
they could share with someone else. That is not our philosophy 
as we assign spectrum for use. So the situation hasn't really 
presented itself in real life yet.
    Mr. Barrow. Thank you very much.
    Mr. Walden. The gentleman yields back his time. I recognize 
the gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Strickling, in your opening statement I think you 
indicated that you need additional funding for spectrum 
planning and for reallocation management; is that true?
    Mr. Strickling. I am suggesting that this is what the 
Federal agencies need, yes, if we want to improve the process 
by which we do these.
    Mr. Stearns. The answer is yes or no. You are saying the 
NTIA needs more funding; isn't that true?
    Mr. Strickling. I have not said the NTIA needs more 
funding, although I will say that, given some of the 
legislation that is out there that would impose new 
responsibilities on us, yes, we would need additional resources 
to perform additional tasks beyond what we are doing today.
    Mr. Stearns. We looked at the President's 2012 budget and I 
didn't see any new funding request there, so if you needed it, 
I am just curious why you didn't----
    Mr. Strickling. At the time that budget was prepared, these 
new tasks hadn't been identified to us that are currently in 
some of the legislation that are pending.
    Mr. Stearns. You note in your written testimony that the 
President proposed doubling in the next 10 years the amount of 
spectrum available for commercial use. How many, how much 
megahertz can we expect to come from this repurposed Federal 
spectrum?
    Mr. Strickling. Of the 500 megahertz, the FCC had indicated 
it could deliver roughly 280 to 300 megahertz, and so that 
would assume, then, that the Federal side would provide at 
least 200 megahertz, and that is the assumption we have been 
working on.
    Mr. Stearns. One of the things that--the last time we in 
this country did government spectrum allocation and asked users 
to vacate bands that were reallocated for commercial use, I 
think the auction was by the FCC in 2006; is that correct?
    Mr. Strickling. The AWS auction was about $13 billion to 
$14 billion, yes.
    Mr. Stearns. But isn't it true that even today we are still 
trying to get people to relocate out of the spectrum? I mean, 
hasn't this taken an inordinate amount of time to accomplish 
that?
    Mr. Strickling. As I indicated earlier, I think 81 percent 
of the agencies have relocated. All the agencies that said they 
would relocate within 3 years have relocated.
    Mr. Stearns. I mean, what you are talking about is 
something--the auction was in 2006, and I think they started in 
2007; yet here we are this amount of time later and you are 
still talking about reallocation of people out of the spectrum. 
Isn't that true?
    Mr. Strickling. In certain bands, that is correct.
    Mr. Stearns. Why has it taken too long, and what have you 
learned from that that could assure the American public that 
when you reallocate again, that people actually leave?
    Mr. Strickling. Well, people are leaving on the schedules 
they committed to at the time of the auction, and in fact, we 
have tried to be pretty tough on the agencies. Last year, I had 
three agencies ask for extensions of time beyond the deadlines 
they had committed to, and we rejected those requests. Now, we 
did suggest to the agency that if they could work out an 
accommodation with the licensee, that that would be oK with us, 
and that, in fact, is what the those agencies did.
    But in some of these cases, we are talking about a 
relocation of a point-to-point microwave that isn't interfering 
with, wouldn't interfere with the commercial entity if it 
started service or it could be in an area that the commercial 
entity hasn't started to build out in yet. There is plenty of 
AWS spectrum that the licensees have not started to build out 
yet.
    Mr. Stearns. So you think you have learned so that it would 
not be this slow again?
    Mr. Strickling. I guess I am taking some issue with the----
    Mr. Stearns. An amount of time.
    Mr. Strickling. It is on schedule. It is on the schedule 
the agencies committed to.
    Mr. Stearns. OK. Here is my last question if I can get it 
out here.
    While you state in your testimony that NTIA does not have 
the expertise in the multitude of agency missions to direct how 
agencies should utilize spectrum to meet their needs, it seems 
to me that the government agencies lack incentives to use 
spectrum as efficiently as possible, and what has NTIA done to 
address this issue?
    Mr. Strickling. Well, that goes to the question I had 
earlier. First and foremost, we require agencies to buy 
commercial where they can because if they are developing radio 
systems for particular missions, it is correct that we don't 
second-guess that.
    I have no ability to determine that the radio systems that 
control an unmanned aerial drone are properly sized or scaled 
to perform the function that the Department of Defense has 
decided it needs that particular drone to perform. We have to 
accept that on face value, and that is true I think for a whole 
variety of these systems that are being designed and developed 
to allow agencies to perform their missions.
    Mr. Walden. I now recognize the gentleman from Illinois, 
Mr. Shimkus.
    Mr. Shimkus. I will hold for my comments.
    Mr. Walden. I now recognize the gentlewoman from Tennessee, 
Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and again, thank 
you for being here, Mr. Secretary.
    Let me ask you just a little bit. I want to go back. You 
talked a little bit about the cost-benefit analysis and making 
certain that agencies have the resources to undertake these 
issues. I want to highlight one item with you that I think some 
of our colleagues may kind of share this concern.
    I recall a hearing about 6 years ago where I asked one of 
our agencies why they had not moved to a template for managing 
their financial resources in a timely manner, and the response 
to me was, well, they didn't have a timeline because they knew 
they had a continuing appropriation. And I think that this 
highlights quite succinctly what we see as a resistance from 
some spectrum managers in the government to get with the 
program and to get this done.
    We know we are facing a spectrum shortage in the commercial 
market. We know that by the end of the decade, there are going 
to be 1 trillion devices that are attached to the broadband. 
Now, if we are going to create jobs and if we are going to keep 
the focus on jobs and if we are going to see a resurgence in 
the technology area and if we are going to continue to be the 
exceptional innovators, it means people have got to get with 
the program, and that as you are able to pack that broadband 
down and you are able to layer and use that spectrum, we want 
to know that, first of all, they are doing that efficiently and 
that you-all have some benchmarks and requirements.
    Do you have stated benchmarks and requirements for them? 
What is your plan specifically on where they are to use 
commercial product, not just in cell phones but in other areas? 
What are you giving them? What are you doing to deal with some 
of the Federal agency managers that are resistant and are 
kicking the can down the road?
    You know, people get tired with Congress kicking the can 
down the road when it comes to dealing with the debt, and we 
are looking at spectrum that can be auctioned to help with 
that. We are also looking at putting this spectrum in the 
marketplace to create jobs and products that you need, whether 
it is in financial services or whether it is in health IT, 
whether it is in entertainment. I have talked to innovators in 
all of these areas, and what we want to know is that you are 
serious about this and not saying, well, we have got a 
continuing appropriation.
    And you know, Federal Government doesn't create jobs; 
private sector does. We know that. We want to know that you all 
appreciate that and that you have got a plan that you are 
making requirements and that you have a timeline. So can you 
articulate that?
    Mr. Strickling. Yes, ma'am, I think you are making some 
very good points.
    Mrs. Blackburn. Thank you.
    Mr. Strickling. First and foremost, let me say that our 
search for 500 MHz is probably as important an undertaking as 
any in terms of dealing with the imperatives that you described 
in your question.
    Mrs. Blackburn. Do you think you can go above the 500 MHz?
    Mr. Strickling. I think it is too soon to tell that. We 
have a candidate list between us and the FCC of 2,200 MHz of 
spectrum to----
    Mrs. Blackburn. In total?
    Mr. Strickling. In total, to look at, which includes some 
bands that are currently possibly underutilized on the 
commercial side, because if we are going to demand efficiency, 
I think both we and the FCC agree it should be demanded from 
both government users and----
    Mrs. Blackburn. And I agree with that.
    Mr. Strickling. --commercial users. Beyond that, on this 
issue of kicking the can down the road, one recommendation the 
GAO did make to us that we are moving to implement is this 
question of the 5-year review. Once an agency gets an 
assignment, they don't have it in perpetuity. It has to be 
reviewed----
    Mrs. Blackburn. If I can just make a comment on that, and I 
appreciate that they have got a 5-year review, but you know, 
when you are looking at the life cycle of a technology product 
in the marketplace, you have got 18 months. And so the 
exponential growth of this is enormous, and I think that what 
we need to know is that they are not slow walking because they 
have got 5 years. They need to pick the pace up because things 
change about every 18 months, and I know, sir, that you 
appreciate that.
    Mr. Strickling. Yes. And keep in mind that while what you 
are saying is true of the commercial world, many of these 
Federal systems do have long lives. I mean, as I mentioned, the 
satellites have got life spans of 20 to 25 years that have to 
be taken into account, but in any event, you are making some 
very good points and we are taking those in into account as we 
look to improve the process by which we conduct these periodic 
reviews of assignments.
    Mrs. Blackburn. Excellent. Thank you. Yield back.
    Mr. Walden. The gentlelady yields back. I turn to the 
gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and Mr. Strickling, 
welcome back. It is good to have you here, and I did appreciate 
your testimony.
    If done right, you believe, as we believe, that 
reallocation is really a win-win for both the government and 
for the economy and for the communications sector; would that 
be fair to say?
    Mr. Strickling. We need to get to that point. I will tell 
you my impression from Federal agencies is they haven't quite 
yet seen what the win is for them, but I think that some of the 
suggestions that we have made for improving the CSEA in terms 
of allowing some upgrade in technology by Federal agencies 
would go a long way toward making it a true----
    Mr. Shimkus. And I guess that is what the whole crux of the 
hearing is, how do we instead of being the big hammer, how do 
we work with the agencies, how do we move them into the 
commercial use when that is a very credible opportunity and 
option, except for if it is national security or stuff? That is 
clearly why we are having the hearing is, how do we get them 
moved because the great thing I have said numerous times about 
this subcommittee is that this is where jobs are created, and 
as Marsha Blackburn said, if we have a spectrum crunch, we lose 
this opportunity to really take advantage at a time in this 
country when we need to be creating jobs.
    So I have always focused on, in my analysis of looking at 
the FCC, as--and ties to Lee Terry's question is, who is 
managing the whole thing when you have got satellite, cellular, 
microwave, bits and pieces. I think the FCC is a stovepipe. I 
don't think there is one entity looking how this all merges 
together and then you get stuff like this.
    I think process equals policy, and I think we have, because 
of the way we are organized, questionable process because of 
being stovepiped in sectors and not over--it is an editorial 
opinion, but it is one that I think that is why I am a erase, 
get the white board, erase the organizational structure and 
rewrite it based upon a new technological age. We can't balance 
the Federal budget, so I can't expect us to do that, but I do 
think that is where the debate needs to be, and you guys need 
to help intervene in how do we do this.
    I heard your comments on T-Mobile, I think the flip side 
would be they were trying to incentivize or release the 
spectrum, but the goalpost kept moving. So if there is more 
money given to an agency to help them move and then you don't 
see movement, then it kind of stems to that point of how do 
we--I mean, how do we get them to do it without a big hammer?
    Mr. Strickling. Well, first off, I am not sure what your 
comment about goalpost moving was.
    Mr. Shimkus. I would say that money was offered--asked by 
some agencies, maybe companies stepped forward to do that, and 
then the timelines aren't met.
    Mr. Strickling. Actually, T-Mobile would have loved to have 
been able to have contributed dollars to help agencies move, 
and it is not allowed under the law.
    Mr. Shimkus. That is an issue of, why not? I mean, if we 
are trying to reform the system and they are willing to come 
front to help them do that, then why not?
    Mr. Strickling. I think that would be a great question for 
the committee to take a look at.
    Mr. Shimkus. That would be a policy----
    Mr. Strickling. It is a much broader policy issue than just 
spectrum. It comes to the whole question of businesses making 
gifts to government and the circumstances under which that 
would----
    Mr. Shimkus. And I have a military background, so I 
appreciate especially our men and women in uniform and making 
sure they have a legitimate use in communication and all the 
new gears, but if we can marry the two, I think we would both 
win, which I think was the opening part of my comment.
    Let me just end on this. You propose, in essence, some 
lengthy time frames for reallocating government encumbered 
operations but you also state that you can accommodate requests 
for additional government users in as few as 9 days. And the 
question would be, why can't NTIA accomplish the moves in 
shorter time frames? Is it availability of equipment or what is 
the holdup?
    Mr. Strickling. Right. So the 9 days is when we get a 
request to assign spectrum to an agency. Presumably that agency 
already has the equipment it needs. It is simply seeking an 
authorization to install equipment in a particular geographic 
location.
    Mr. Shimkus. And I guess I say we shouldn't--I mean, you 
are assuming and I have learned a long time that maybe we 
shouldn't assume; maybe we ought to know if they have the 
equipment to be able to use if you can grant that in 9 days.
    Mr. Strickling. Now, when they need to move, when we are 
talking about taking all of the microwave circuits that all of 
these agencies have and moving them out of 1755 to 1850, now we 
are talking about an acquisition by all of these agencies of 
new equipment and, in effect, going in and taking out the old 
equipment, installing new equipment.
    In some cases, these circuits are in very inaccessible 
locations. All told, we have tens of thousands of these 
circuits overall in our assignment database. I think we have 
roughly between one and 2000 in the 1755 to 1850 band, and so 
it is question of resources and time, and that is just for the 
microwave, which was one of the pictures I used in my slide 
deck.
    Mr. Shimkus. Thank you very much. Thank you, Mr. Chairman.
    Mr. Walden. And I think a good example of that is DTV 
conversion and how long that took and how complicated that was 
is another example.
    Mr. Strickling. And if I could point out, even when the 
commercial side tries to relocate, they don't do it very 
quickly themselves. I mean, we have just been through with 
Sprint/Nextel was involved in roughly 2 GHz, getting electronic 
news organization to move. That was a process that started I 
think back in 2006, 2007, and it is still not done.
    Mr. Shimkus. But they lose market share. They lose stock 
price. If they don't move, there is a big hammer on them.
    Mr. Walden. Different incentive process.
    Now, look to the gentleman from New Hampshire, Mr. Bass, 
for his time.
    Mr. Bass. Mr. Chairman, I want to thank you for having this 
hearing. I apologize for being a little late today. I will pass 
on questions at this time.
    Mr. Walden. Then I would turn to the gentleman from 
Louisiana, Mr. Scalise, for five.
    Mr. Scalise. Thank you, Mr. Chairman. Appreciate the 
hearing.
    Mr. Strickling, appreciate you coming here, too.
    The fast-track evaluation report had recommended a total of 
115 MHz be made available for commercial use within 5 years. 
Can you kind of expand upon if there are any measurable goals, 
any kind of concrete things that y'all have put in place to 
achieve that?
    Mr. Strickling. Well, yes. We believe that that spectrum 
can be reallocated at commercial use within 5 years. It is, 
though, up to the FCC to make that happen. We have sent--I 
think in January this year we sent a formal request to the FCC 
to proceed with that reallocation. They will have to conduct a 
proceeding to lay out the terms of how that spectrum will be 
made available. They will have to conduct whatever auction 
would be undertaken should they choose to auction it, and so 
that is really out of our control at this point.
    Mr. Scalise. So from NTIA's perspective, there is nothing 
else that y'all can do to see that that is met? It is up to the 
FCC at this point; there is nothing else measurable that you 
can do?
    Mr. Strickling. They have the authority. We will support 
them in any way we can, but yes, it is theirs now.
    Mr. Scalise. OK. Thanks. In your testimony, you talk about 
the GAO report that had been critical of some of the agency's 
spectrum management plan as it relates to at least NTIA and how 
it is going about things, and you talk in there about some of 
the things that you think need to be done to improve. I guess 
if an agency could just tell you that they still need their 
spectrum, then that is good enough, that is all you can go buy, 
and it seems like you are indicating there should be a higher 
bar that an agency has to prove that it still needs that 
spectrum, as opposed to saying they just want it. And we all 
see how Federal agencies, nature of the beast, once they get 
something, whether it is a budget request or something else, 
when you try to chop it away, they say they can't do without 
it, and all of the sudden, you take something away, and they 
manage to do with what they have.
    And so if about agency tells you and you are managing their 
plan but that you might have some limitations, if they tell 
you, well, I still need that, right now is it that all that you 
can go by is their attestation that that is something they need 
as opposed to maybe requiring a higher bar to prove that they 
still need it because in some cases, maybe they have got it and 
they just don't want to let it go and they could let it go if 
there was some higher requirements. If you can kind of touch on 
the GAO criticism and then your response, it seems like you 
were indicating some policy changes that could be made to 
improve that.
    Mr. Strickling. Yes. The GAO suggested that we should 
perhaps consider requiring, you know, sworn to statements from 
the agency either requesting a new assignment or seeking to 
continue an existing assignment and directed us to--or 
suggested we should consult with the agencies that form the 
IRAC with us to manage all of this spectrum. We are in the 
process of doing just that to determine which of their 
recommendations make sense to implement and how quickly we can 
implement them.
    I will say that it is in the incentive of an agency to give 
us accurate information, because when the next agency comes in 
line and is interested in using spectrum and the same band and 
roughly the same location, it is very important that the first 
agency not suffer interference from that second use. So, 
because of the need to protect against interference between 
agencies, I think every agency has a pretty strong incentive to 
give us accurate information.
    Nonetheless, the recommendations from the GAO seemed useful 
to us, and we are working with the other agencies to go forward 
and implement certain of them.
    Mr. Scalise. OK. And I am going to get your take, as you 
look at all Federal agencies' use of spectrum, there is a lot 
of review right now by the FCC and others regarding 
LightSquared and how these issues with some of the other users 
of the spectrum near theirs can possibly be worked out. Is it 
something that is reconcilable from your view as it relates to 
Federal agencies? Especially, is this something that you see a 
reconcilable solution short of some kind of major sort of 
interference with FCC and how are you working with them on 
that?
    Mr. Strickling. With respect to the LightSquared situation, 
the FCC in its waiver order from last January or February 
indicated it would only move forward and allow LightSquared to 
commence commercial operations after consulting with us and 
after reviewing a wealth of testing that has been conducted 
over the last several months. Those testing reports are just 
coming in now. My folks are in the process of evaluating those 
to determine at what point LightSquared might be allowed to go 
into commercial operation and under what condition.
    I think the one conclusion everyone, including 
LightSquared, has reached so far is that their original 
operational plan is not going to be one that they can pursue 
because of the interference it will cause to GPS receivers, and 
we are in the process now of evaluating the test data to 
determine what are the options for a different form of 
operation by LightSquared.
    Mr. Scalise. Do you know when you will have those 
recommendations?
    Mr. Strickling. Do I know when we will have those 
recommendations? The FCC has put the test reports it has 
received out for public comment. I am not sure what the close 
date is for that. Our people, my experts, are looking at the 
data now. We will certainly want to inform our conclusions from 
whatever public comment there is on that. So I think we are 
still a month or two away.
    Mr. Scalise. Thank you, Mr. Chairman. That is all I have. I 
yield back.
    Mr. Terry [presiding]. Thank you.
    The gentleman from Ohio is recognized for 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. Appreciate 
it.
    And Mr. Secretary, thank you very much for being with us 
today.
    I think that in listening to the questions from my 
colleagues on the committee, I think you are also hearing the 
same thing, that we are all very, very interested in this topic 
and especially when it comes to the question as to creating 
more jobs. And we all see what broadband can do and if we get 
these things out to market faster, and we have to make sure 
that, you know, bands are going where they are going to be 
going.
    On the second page of your testimony, if I can just start 
there, you state that, ``First, valuable spectrum that is 
currently underutilized will be freed up through voluntary 
incentive auctions,'' and I have got legislation out there to 
do just that. But one of the things in talking with folks in 
the private sector that we all want to make sure that they are 
fairly compensated if someone does give up that spectrum, and 
sometimes, they fear, you know, if they do, there might be a 
little strong-arm tactics sometimes out there--that it is truly 
voluntary, and I was wondering if you could touch on that 
voluntary incentive auctions as you see them.
    Mr. Strickling. I think along the lines that you suggested, 
the administration position is that these auctions, that the 
FCC does need this authority to conduct incentive actions and 
that they would be voluntary auctions.
    Mr. Latta. And let me also go on with this, and I know that 
Mrs. Blackburn brought this up about, especially on the private 
sector side, and also, I believe it was Mr. Stearns that also 
had a line of questions about how long it is going to take you 
to take that freed-up spectrum and get it out so that the 
private sector can be utilizing it.
    You know, the cost to private industry that I am worried 
about--I know that other Members are worried about--is that if 
we are going to have this, how much time do we have to get this 
out to market, so you are not creating something today that--my 
greatest fear is when I buy a new computer at home, I never 
look in the paper to see what these things are on sale for 
because usually the week after I buy it, they are 50 percent 
off. And I think the same thing is happening in technology out 
there, that things move so quickly. And again, if you could 
just elaborate a little bit more how we can assure business out 
there that we can get this spectrum to them, so they can 
utilize it, so they can, you know, get it developed with, you 
know,--I don't care if it is the laptops or you name it, that 
or as in your testimony, you list the different areas that 
folks would be using, smartphones, tablets and laptops, but we 
want to make sure they can be developing it today knowing that 
within 18 or 20 months, it could be out there.
    Mr. Strickling. It is a very good question. The first thing 
I would refer you to is the AWS-1 auction that was conducted 
back in 2007, I believe. A lot of that spectrum still has not 
been built out by the people who bought it at auction, even 
though they have the full ability to do so. So we are taking a 
long time horizon at this. We can see the growing demand. We 
can see that there is going to be a continuing need for more 
spectrum.
    Our spectrum that we are identifying now, again, some of it 
can be made available within 5 years. Our overall target is 
that whatever we recommend needs to be made available within 10 
years. We think that that gives it a good progression for 
industry to see where the additional spectrum is going to be 
coming from to meet their needs, but keep in mind that there is 
a lot of underutilized commercial spectrum out there right now.
    Mr. Latta. And with my time remaining, I want to ask you 
this, especially with the WiFi technology as it is becoming 
more popular and being embedded in more and more devices. WiFi 
is also considered technology that service providers are 
turning to in an effort to try to offload data traffic from 
their crowded networks. You know, what plan does the Federal 
Government have right now, if any, to evaluate whether more 
spectrum can be made available, especially for WiFi at the 5 
GHz range?
    Mr. Strickling. The 5 GHz range is an interesting band to 
talk about because that is a band in which the WiFi is sharing 
spectrum with radar systems, including Federal Aviation 
Administration wind sheer radars. When that sharing was 
approved, the manufacturers of the WiFi equipment were given 
radar characteristics, you know, that the FAA was using to 
ensure that their equipment would not interfere with these 
radar systems. In fact, we have found instances where that is 
happening, where there is interference, and when you are 
dealing with wind sheer radars, you don't want to get into a 
situation where something might happen to disable those 
systems. They are very important to the safety of human life in 
terms of the planes that could be affected by wind sheer. So we 
are learning a lot about sharing as a result of this.
    For example, the FAA now would like to modernize its radar 
systems so they will now have different characteristics that 
will affect those WiFi sets in a different way than the 
original designs. Yet how do you get the WiFi industry to go in 
and modify its designs to accommodate an upgrade in the 
modernization that our FAA feels is necessary to take, again, 
to protect human life in airplanes?
    So we are dealing with a whole variety of these issues and 
trying to learn from them because this is the wave of the 
future. We are going to have to find more and more of these 
opportunities where the commercial use can coexist with the 
government use, and we have to find ways to minimize and 
prevent harmful interference from taking place.
    Mr. Latta. Thank you.
    Mr. Chairman, I see my time has expire and I yield back.
    Mr. Stearns [presiding]. Thank you. Well, we have another--
Charlie, have you thought of a question?
    All right. Well, that concludes--that was your last chance 
to keep Mr. Strickling here for 5 more minutes. So then that 
concludes all of the questioning, Mr. Strickling.
    Thank you for being up here. It has been a very informative 
hearing. We are adjourned.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing is the latest in a series on how good 
spectrum policy can expand wireless broadband, promote an 
interoperable public safety broadband network, create needed 
jobs, and reduce the deficit. This hearing will focus on the 
use of spectrum by the federal government.
    The U.S. Government is the largest single user of spectrum 
in the country. Everything from RADAR systems to remote 
environmental sensors are examples of government wireless 
spectrum use. The questions for us today are ``how can we 
ensure that the government uses spectrum in the most efficient 
way possible and what spectrum can be cleared for reassignment 
and auction to commercial uses?''
    I applaud Assistant Secretary Strickling and his staff at 
the NTIA for beginning this difficult task and identifying 
spectrum for potential reassignment in its 5- and 10-year 
spectrum plans. This is a good start to the process, and I look 
forward to working together with the NTIA and my friends on the 
other side of the aisle as we explore opportunities to make the 
most of the spectrum. Spectrum policy can play a critical role 
in creating jobs and reducing the deficit; reassigning spectrum 
from government uses to the commercial sector is a tough but 
critical step in this process. I thank Assistant Secretary 
Strickling for his testimony today and look forward to hearing 
his approach to the challenges and opportunities of spectrum 
reassignment.


                                 <all>

</pre></body></html>
